                                Office of Inspector General
                               Corporation for National and
                                        Community Service




         PRE-AUDITSURVEYOF THE
        LOUISIANASERVECOMMISSION

          OIG REPORT
                   NUMBER 04-07
             SEPTEMBER
                     26,2003




                                               COMMUNITY
                                               SERVICEE3ZZ




                       Prepared by:

                       KPMG LLP
                   2001 M Street NW.
                 Washington, D.C. 20036




This report was issued to Corporation management on February 17, 2004.
Under the laws and regulations governing audit follow up, the Corporation is to
make final management decisions on the report's findings and
recommendations no later than August 17, 2004, and complete its corrective
actions by February 17, 2005. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                   Office of Inspector General
                         Corporation for National and Community Service
                                       Audit Report 04-07

          Pre-Audit Survey of Corporation for National and Community Service Grants
                                        Awarded to the
                                 Louisiana Serve Commission

Introduction

The Corporation for National and Community Service, pursuant to the National and Community
Service Trust Act, as amended, awards grants and cooperative agreements to State commissions,
nonprofit entities, tribes, and territories to assist in the creation of full-time and part-time national
and community service programs. Currently, under the Act's requirements, the Corporation
awards approximately three-fourths of its AmeriCorps*State/National funds to State
commissions. The State commissions in turn fund and are responsible for the oversight of
subgrantees who execute the programs. Through these subgrantees, AmeriCorps members
perform service to meet educational, human, environmental, and public safety needs.

The Office of Inspector General retained KPMG LLP to perform a pre-audit survey of the
Louisiana Serve Commission. The objective of the pre-audit survey was to evaluate: (1) the
adequacy of the pre-award selection process; (2) the administration of grant funds; and (3) grant
monitoring. The audit period included Program Years 2000-2001 and 2001-2002.

The Commission was awarded AmeriCorps Formula, AmeriCorps Competitive, Program
Development and Training, Education Award, America Reads Promise Fellow, and
Administrative grants of approximately $7,396,568 for Program Years 2000-2001 and 2001-
2002, the period covered by the pre-audit survey. The auditors noted that the Commission did
not always follow its procedures for awarding subgrants, Financial Status Reports did not agree
with accounting records, and the Commission charged unallocable and unallowable costs to its
grants. In addition, the Commission charged unallocable and unallowable costs to it required
match amount. The auditors also noted that the Commission did not monitor and follow up on
the results of subgrantee A- 133 audits. The auditors recommended performing a full-scope audit
for Program Years 2000-200 1 and 2001-2002.

The Office of Inspector General has reviewed the report and the work papers supporting the
auditors' conclusions. Our review of the auditors' work papers disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted government
auditing standards.

The Office of Inspector General provided the Louisiana Serve Commission and the Corporation
with a draft of this report for their review and comment. Their responses are included in their
entirety as Appendices C and D, respectively.
                                                  Pre-Audit Survey of the
                                                Louisiana Serve Commission
                                                     Table of Contents




RESULTS IN BRIEF .......................................................................................................................     1

BACKGROUND .............................................................................................................................     2

OVERVIEW OF THE LOUISIANA SERVE COMMISSION ..................................................... 2

OBJECTIVES, SCOPE, AND METHODOLOGY........................................................................ 3

FINDINGS AND RECOMMENDATIONS ....................................................................................                            5

APPENDIX A - COMMISSION FUNDING: FOR PROGRAM YEARS
200 1 AND 2002. ........................................... ..... .. .... .. ... .... . ...,.,............... .            . . .. . ... A. 1

APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND
METHODOLOGY ......................................................................................................................         B. 1

APPENDIX C - LOUISIANA SERVE COMMISSION RESPONSE........................................ C.l

APPENDIX D - CORPORATION RESPONSE.................................................................... D. 1
             K P M G LLP
             2001 M Street, NW
             Washington. DC 20036




September 26, 2003



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed a pre-audit survey of the Louisiana Serve Commission
(Commission) on Corporation for National and Community Service (Corporation) funds received by the
Commission for program years 2000-2001 and 2001-2002. The primary purpose of this survey was to
provide a preliminary assessment of:

   the adequacy of the Commission's pre-award selection process;
   the procedures at the Commission for the fiscal administration of its Corporation grants; and
   the effectiveness of the Commission's procedures for monitoring subgrantees.

We were also to report on the recommended scope of additional audit procedures to be performed at the
Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following preliminary
assessments regarding the Commission's systems for administering its Amencorps grants:

    The Commission administers an open, competitive process to select national service subgrantees.
    However, the Commission could not provide Conflict of Interest forms for all officials that
    participated in the subgrantee selection process. In addition, the Commission did not comply with the
    Corporation's requirements for awarding a Promise Fellow grant.

    The Commission did not have adequate controls in place over the administration of grant funds.
    Differences were noted between amounts reported on the Commission's Financial Status Reports
    (FSRs) submitted to the Corporation and the Commission's financial records. Additionally,
    questioned costs claimed included $28,393 and $27,284 for various expenditures charged to the
    Administrative and Learn and Serve grants, respectively. Further, Administrative grant match
    amounts of $84,440 were also questioned.

    The Commission has established controls to evaluate and monitor subgrantees. However, the
    Commission does not have adequate procedures for: (i) obtaining and reviewing subgrantees' Office
    of Management and Budget (OMB) Circular A-133, Audits ofstate, Local Governments, and Non-
    ProJit Organizations audit reports, and (ii) following up to ensure the timely resolution of identified
    deficiencies.




                                                                          1
1111           KPMG LLP a U S Ihmlted l~ablhtypaitnersh~pis the U S
               member f r m of KPMG International a S w s s coaperatlve
The section of this report entitled "Findings and Recommendations" describes the weaknesses noted in
further detail, makes recommendations for corrective actions, and addresses additional issues noted during
the survey.
The Commission is a part of the Louisiana Lieutenant Governor's Office and is subject to an annual OMB
Circular A-133 audit performed by the Louisiana State Legslative Auditor. The State auditors identified
the Commission's AmeriCorps grants as a major program and reported findings and questioned costs,
pertaining to the AmeriCorps program in fiscal years 2001 and 2002. The auditor's findings related to a
prior-year questioned cost for a Commission subgrantee.

Based on our preliminary assessments and the nature of our findings, we recommend the performance of a
full-scope audit of the Commission for years not beyond record retention requirements.

Additionally, we recommend that the Corporation follow up with the Commission to determine that
appropriate corrective actions are implemented to address the conditions reported herein. We also
recommend that the Corporation consider these conditions in its oversight and monitoring of the
Commission.

Background

The National and Community Service Trust Act of 1993, Pub. L. No. 103-82, which amended the National
and Community Service Act of 1990, established the Corporation for National and Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements to State
commissions, nonprofit entities, tribes and territories to assist in the creation of full-time and part-time
national and community service programs. Through these grantees, AmeriCorps members perform
services to meet the educational, human, environmental, and public safety needs throughout the Nation,
especially addressing those needs related to poverty. In return for this service, eligible members may
receive a living allowance and post-service educational benefits.

Currently, the Corporation awards approximately three-fourths of its AmeriCorps State/National funds to
State commissions. State commissions are required to include 15 to 25 voting members. Each
commission has a responsibility to develop and communicate a vision and ethic of service throughout its
State.

The commissions provide AmeriCorps funding to approved applicants for service programs within their
States and are responsible for monitoring subgrantees' compliance with grant requirements. Commissions
are also responsible for providing training and technical assistance to AmeriCorps State and National
Direct programs and to the broader network of service programs in the State. Commissions are prohibited
from directly operating national service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State commissions. The standards require, in part, that the commissions maintain internal
controls that provide for accurate, current, and complete disclosure of the financial and programmatic
results of financially assisted activities. The commissions must also provide effective control and
accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the Louisiana Serve Commission

The Louisiana Serve Commission, located in Baton Rouge, Louisiana, has received ArneriCorps grant
funds from the Corporation for National and Community Service since its inception in 1994. The
Commission operates within an agency of the State of Louisiana and relies on the State's Office of
Finance and Management (OFM) to perform grant accounting duties. The Commission has six full-time
employees, including an Executive Director, a Deputy Director, a Learn and Serve Director, an
AmeriCorps Program Officer, an Office Manager, and an Assistant to the Learn and Serve Director.

As a State agency, the Commission is annually subject to an OMB Circular A-133 audit performed by the
Office of the Legislative Auditor. The Commission's ArneriCorps grants were identified as major
programs in fiscal years 2001 and 2002, and findings related to these programs were specific to one of the
Commission's subgrantees.

The Commission provided us with the following information for the program years we reviewed:

                                                                           Number of
                                                                           Subgrantees
                                                                         Subject to OMB
                             Total Corporation         Number of         Circular A- 133
        Pro~ramYear              Fundinpc              Submantees            Audits*




*   Determination is based solely on the dollar value of Federal awards passed through the Commission
    for each program year. Remaining subgrantees could be subject to an OMB Circular A-133 audit if
    they received additional Federal grant funds from sources other than the Corporation.

Appendix A contains more detailed information on funding received from the Corporation during program
years 2000-2001 and 200 1-2002.

Objectives, Scope, and Methodology

We were engaged by the Office of Inspector General, Corporation for National and Community Service, to
provide an assessment of the systems and procedures in place at the Commission for administering its
AmeriCorps grants and for monitoring the fiscal activity of subgrantees. The primary purpose of this pre-
audit survey is to provide a preliminary assessment of:

    the adequacy of the Commission's pre-award selection process;
    the procedures used by the Commission for the fiscal administration of its Corporation grants; and
    the effectiveness of the Commission's procedures for monitoring subgrantees.

We also reported on the recommended scope of additional audit procedures to be performed at the
Commission.

Our survey included the following procedures:

    reviewing applicable laws, regulations, grant provisions, the Corporation's State Administrative
    Slandards Tool and other information to gain an understanding of legal, statutory, and programmatic
    requirements;
   reviewing OMB Circular A-133 reports and current program year grant agreements for the
   Commission;

   obtaining information fi-om Commission management to complete flowcharts documenting the
   hierarchy of AmeriCorps grant funding for program years 2000-2001 and 2001-2002; and

   performing procedures to achieve the objectives, detailed in Appendix B, to assess the Commission's
   internal controls, selection of subgrantees, administration of grant funds and monitoring of
   subgrantees, including internal controls over reporting service hours and performance
   accomplishments.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission by utilizing inquiries, observations, and examinations of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and recommendations
presented in this report. We discussed all findings with Commission management during an exit
conference on September 26,2003.

Our procedures were performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We were not engaged to, and did not, perform an audit of any
financial statements, and the procedures described above were not sufficient to express an opinion on the
controls at the Commission or on its compliance with applicable laws, regulations, contracts and grants.
Accordingly, we do not express an opinion on any such financial statements or on the Commission's
controls or compliance. Had we performed additional procedures, other matters might have come to our
attention that would have been reported.

We provided a draft of this report to the Commission and the Corporation. The C o ~ s s i o n ' and
                                                                                                s the
Corporation's responses to our findings and recommendations are included as Appendices C and D,
respectively.
Findings and Recommendations

Selecting Subgrantees

According to 45 CFR 5 2550.80.(b).(l), "[elach State must administer a competitive process to
select national service programs to be included in any application to the Corporation for funding."

The Commission administers an open, competitive process to select national service subgrantees.
The Commission advertises funding availability through mailing lists, newspaper announcements
and newsletters. In addition, selection officials sign conflict of interest statements for each
application reviewed, receive an instruction package, and use a standard form to evaluate each
applicant. However, we identified the following areas needing improvements related to the
selection process.

        Missing Conjlict of Interest Forms

An important part of a sound control environment is the implementation of procedures to ensure
objectivity within the selection process. One way to ensure this objectivity is to require selection
officials to annually certify, in writing, that they have no conflicts of interest. If selection officials
have conflicts of interest but do not report them, the fairness of the selection process may be
impaired. All persons participating in the selection process should have signed conflict of interest
statements on file. The Commission requires completed conflict of interest forms from
application reviewers. However, completed conflict of interest forms were missing in several
instances. Specifically, for the sample selected, four forms were missing, two for Promise Fellow
grant applications and two for the formula and competitive grant applications. Procedures are
currently in place to maintain these forms. Therefore, no recommendation is required related to
the maintenance of conflict of interest forms.

         Non-Competitive Process for Promise Fellow Award

The Commission rejected a Promise Fellow applicant whose application received a score that was
higher than the three other applicants receiving awards. It instead awarded the amount to the
Louisiana Association of Nonprofit Organizations (LANO), which had not formally applied for an
award.

Recommendation

We recommend the Commission reemphasize its established procedures for selecting subgrantees
to ensure that it is administering a competitive process for selection.

Administering Grant Funds

As part of the grant administration process, "[glrantees are responsible for managing day-to-day
operations of grant and subgrant supported activities. Grantees must monitor grant and subgrant-
supported activities to assure compliance with applicable federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function or
activity." See 45 CFR 5 2541.400(a).

The Commission has developed and implemented procedures that are intended to provide
reasonable assurance that grant funds received from the Corporation are properly administered.
Procedures are in place to withhold funding payments if subgrantees do not submit Financial
Status Reports in a timely manner, manage cash draw downs and disbursements to subgrantees,
and ascertain whether subgrantees have met their matching requirements. The Commission's
personnel have adequate skills and experience to manage and administer Corporation grant funds.
However, we identified the following areas for improvement within the grant administration
process.

   Discrepancies between Financial Status Reports and Financial Records

Financial Status Reports (FSRs) that were submitted to the Corporation during program years
2000-2001 and 2001-2002 did not agree to the financial records that were maintained by the
Commission. Examples of FSRs that were submitted to the Corporation that did not agree with
financial records of the Commission include the FSR for the AmeriCorps grant for September 30,
2002, as well as the Administrative grant for December 3 1,2002. Further, transactions associated
with the AmeriCorps formula and competitive grants were accounted for with the use of one
organization code in the Commission's accounting system, thereby making it difficult to
distinguish costs applicable to each of these grants.

Federal regulations, prescribes standards for financial management systems of grant recipients.
See 45 CFR 5 2543.2 l(a). Federal grants recipients' financial management systems are required
to provide accurate, current, and complete disclosure of the financial results of each Federally-
sponsored project or program. Financial management systems are also required to provide for
records that identify the source and application of funds for Federally-sponsored activities.
AmeriCorps Provisions, C.22, entitled "Financial Management Provisions," requires grantees to
maintain financial management systems that include standard accounting practices, sufficient
internal controls, a clear audit trail, and written cost allocation procedures. The systems also must
be capable of distinguishing the expenditures attributable to each grant.

Recommendation

We recommend that the Commission improve the effectiveness of its administration and
accounting for grants as follows:

    1. Develop procedures for reconciling costs reported on applicable FSRs to the accounting
       system. The Commission should document these reconciliation procedures and any
       follow-up procedures that they perform.
    2. Establish a separate organization code in the accounting system for formula and
       competitive grants in order to track costs separately.
    3. Complete reconciliation of all prior FSRs where necessary and, if required, submit revised
       FSRs to the Corporation stating corrected amounts.

Questioned Costs

The following costs were questioned or issues were raised about the costs below:

        Membership Fees Paid to the American Association o f State Service Commissions

The Commission claimed membership fees paid to the American Association of State Service
Commissions (ASC) amounting to $2,305 as an Administrative grant cost in December 2001.
On its website, http://www.asc-online.org, ASC lists "advocacy7'for State commissions as one of
its functions. More specifically, in a sublink to a page titled "Advocacy," the website states the
following:

    ASC educates the public about and advocates for State Service Commissions by      ..
        Working hand-in-hand with Commissions - legislatively, programmatically and
        on policy - to advance service and volunteerism in every state while building a
        network of Americans serving communities

        Educating members of Congress on the needs of State Service Commissions all
        year long and particularly during Appropriation and Reauthorization
        deliberations.

This "Advocacy" page contains a "write to Congress" box which, based on the input of a person's
home zip code, provides e-mail links to that person's Congressional representatives. A sublink to
a page titled "Membership" also lists as one of ASC's activities "efforts to pass legislation
designed to: provide a tax-free education award and living allowance, streamline programs
providing grant awards, provide the basic Commission funding necessary for operating, reduce the
match necessary for federal funds, [and] provide for portability of the education award." This
page goes on to state that the membership fee for ASC "is 1% of the Administrative Fund
Allocation to your state."
The cost for membership in this organization appears to run contrary to the lobbying prohibition
contained in the annual Treasury and General Government Appropriation Act, which every year
states that "[nlo part of any appropriation contained in this or any other Act shall be used for
publicity or propaganda purposes heretofore not authorized by the Congress." (See, e.g., Section
626 of the Consolidated Appropriations Resolution of 2003, Pub. L. No. 108-7, 117 Stat. 470.)
The Comptroller General has interpreted this appropriation act section to mean that Federal funds
cannot be used by grant recipients to organize appeals to the public to urge elected representatives
to support legislation or vote in a particular manner. See 60 Comp. Gen. 423 (1%I), B-
202975(1), (Nov. 3, 1981).

These costs are not being questioned at this time. The OIG is researching this issue. If costs are
determined to be questioned, this finding will be communicated in a separate document.

        Other Potentially Unallowable Expenditures Charred to Administrative Grant
        [Ouestioned Claimed Costs of $7.022)

The Commission claimed costs amounting to approximately $7,022 in expenditures that were not
allocable to the Administrative grant. The majority of these expenditures related to payments for
registration fees and lodging associated with conferences (such as the Southwest Cluster's
Commissioner Leadership Development Conference). These costs do not appear to meet the
prescribed objective of the Administrative grant, whereby funds are provided solely for the
purpose of the operations of the Commission.
        Expenditures for Costs Charged to Administrative Grant for Services Provided Prior to
        the Start o f the Grant (Ouestioned
                                 -          Claimed Costs o f $3,869)

The Commission charged $3,869 to the Administrative Grant for services provided prior to the
January 1,2001, start date of the grant. The majority of these expenditures related to payroll costs
for hours worked in December 2000. The grant was awarded in January 2001.

        Unsupported Costs Charged to Administrative Grant and Learn and Serve Grant
        (Ouestioned Claimed Costs o f $1 7,502 and $27,284, resuectivelv)

The Commission charged unsupported costs to the Administrative grant ($8,526 in 2001 and
$8,976 in 2002) amounting to $17,502. Approximately $17,200 of the total questioned costs
relates to amounts that were estimated and provided by the Louisiana State Legislature to recover
costs associated with the work provided by the Office of Finance and Management, which
performs grant accounting services for the Commission. However, no basis was provided for this
allocation. No invoices were provided to support the remaining $302.

In addition, we noted that an unidentifiable basis was also used to charge grant accounting costs to
the Commission's Learn and Serve grants in the amount of $13,395 and $13,889 in program years
2002 and 200 1, respectively.

Recommendation

We recommend that the Commission improve the effectiveness of controls over the determination
of allowability and allocability of expenditures claimed by the Commission. The Commission
should develop and implement procedures that require reviews of all grant expenditures for
allowability and allocability.

We also recommend that the Corporation determine the allowability of these costs and recover the
funds, as appropriate.

Questioned Match

        Unallocable, Unsupported and Potentially Unallowable Costs Claimed to Administrative
        Grant Match (Ouestioned Match Costs o f $84,440)

The Commission claimed match costs that did not meet the applicable cost principles of 45 CFR 9
2541 D O . The majority of these match costs were questioned because an entity other than the
Commission was entitled to the funding that was reported as match. Other match costs questioned
related to match amounts for which there was no supporting documentation.

Recommendation

We recommend that the Commission improve the effectiveness of its grant administration process
as follows:

     1. Develop and implement procedures to review the documentation supporting the amount of
        match, as well as the allowability of match amounts claimed.
   2. Maintain adequate documentation to support all in-kind match amounts. Documentation
      should include detailed records of all contributions received and the methodology used to
      value these contributions.

Prior Subarantee Audit Findina Resolution (Ouestioned Cost $31,300)

The Commission's fiscal year 1999 OMB Circular A-133 audit report revealed questioned costs
amounting to $3 1,300 related to the New Orleans Youth Action Corps, a subgrantee (Grant
Number 94ASCLA019). In a letter dated May 27, 1999, from the Corporation to the Commission,
the Corporation required the debt to be paid within 30 days. The Corporation further stated that,
unless the debt was resolved within 30 days, interest would accrue pursuant to the Federal Claims
Collection Standards (4 CFR $5 101-105) and the Corporation's Claims Collection Regulations
(45 CFR Part 2506). The subgrantee is no longer in operation. Therefore, the responsibility for
the payment of the debt falls on the Commission. The Commission has not yet paid this debt to
the Corporation.

Recommendation

We recommend that the Commission immediately repay the Corporation the amount due, plus
penalties and interest.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for monitoring subgrant-supported activities to
ensure compliance with applicable federal requirements and that performance goals are being
achieved. The Commission has established controls to evaluate and monitor subgrantees, which
include reviewing program and financial reports and scheduling site visits for each subgrantee
during the grant period. Commission personnel use a standard site visit report form to document
the results of each visit. The Commission notifies the subgrantees of the results of these site
visits, including strengths, weaknesses, concerns, recommendations, and any necessary follow-up
requirements. However, we identified the following areas for improvement related to the
evaluation and monitoring of subgrantees.

    Monitoring Results of OMB Circular A-133 Audits of Subgrantees

Part 6 of the Compliance Supplement to OMB Circular A-133, entitled ''Internal Control" suggests
that reviews and follow-up on subgrantees' audit reports are integral to monitoring subgrantees'
compliance with Federal grant requirements. The OMB circular also requires that procedures
include corrective action plans and consideration of whether subgrantee audits necessitate
adjustment of the grantee's own records. However, the Commission has not implemented an
adequate process for obtaining and reviewing OMB Circular A-133 audit reports for its
subgrantees.

Recommendation

We recommend that the Commission improve its evaluation and monitoring of subgrantees by
developing and implementing a process for obtaining and following up on OMB Circular A-1 33
audit reports for its subgrantees. This process should include documenting, for each of its
subgrantees, the following: (I) whether an OMB Circular A-133 audit was required to be
conducted; (2) whether the audit was actually conducted; (3) the collection and review of the
report; and (4) the follow-up procedures performed for missing reports and for the resolution of
reported findings.



This report is intended solely for the information and use of the Office of Inspector General, the
management of the Corporation for National and Community Service, the management of the
Louisiana Serve Commission, and the United States Congress. It is not intended to be, and should
not be, used by anyone other than these specified parties.
                                                                              Appendix A

                                  Commission Funding
                     Corporation for National and Community Service
                       Funding to the Louisiana Serve Commission
                             For Program Years 2000-2001




AmeriCorps          AmeriCorps        PDAT        Education
 Formula            Competitive       Funds        Funds
  Funds               Funds
                    $1,834,418       $100,992     $30,370

  Match               Match
 $3 19,391          $1,170,899




             Total Corporation Funds Retained by the Commission $589,642

                       Total Commission Matching Funds $488,650

               Total Corporation Funds Awarded to Sub-grantees $3,536,290




 AmeriCorps         AmeriCorps        PDAT        Education    America      Administrative
  Formula           Competitive       Funds        Funds        Reads          Funds

  $91 1,002         $1,834,418       $100,992      $30,370     $760,500       $488,650

   Match              Match                                                    Match
  $319,391          $1,170,899                                                $488,650

  Total # of         Total # of      Total # of   Total # of   Total # of     Total # of
   SUBS                SUBS           SUBS          SUBS                       SUBS
      6                  8               0            1                           0
                                                                         Appendix A

                                  Commission Funding

                       Corporation for National and Community Service
                         Funding to the Louisiana Serve Commission
                                For Program Years 2001 -2002




1
                         II
AmeriCorps                AmeriCorps       Promise          PDAT          Administrative
 Formula                  Competitive       Fellow          Funds            Funds
  Funds                     Funds           Funds
$1,742,065                $1,320,686       $90,600         $l59,OOO

     Match                  Match                                            Match
    $762,120              $1,092,602                                        $224,115




      +                                                                         *
                  Total Corporation Funds Retained by the Commission $383,115

                          Total Commission Matching Funds $224,115

                  Total Corporation Funds Awarded to Sub-grantees $2,887,521



                                                         i
                          AmeriCorps       Promise          PDAT        Administrative
      Formula             Competitive       Fellow                         Funds
                                            Funds
                                           $82,200                        $224,115


      Match                  Match                                         Match
     $762,120              $1,092,602                                     $224,115


I    Total # of
      SUBS
         7
                           Total # of
                            SUBS
                               8
                                           Total # of
                                            SUBS
                                               7
                                                           Total # of
                                                            SUBS
                                                               0
                                                                          Total # of
                                                                            Appendix B

         Detailed Engagement Objectives and Methodology

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and the documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) ensure compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed; allowable costs; eligbility; matching; period of availability of
Corporation funds; suspension and debarment; subrecipient monitoring; and reporting by the
Commission to the Corporation. We then interviewed key Commission personnel to assess the
Commission's controls related to these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment of:

    the adequacy of the systems and controls used by the Commission to select national service
    subgrantees to be included in an application to the Corporation;

    whether the Commission evaluated the adequacy of potential subgrantee financial systems
    and controls in place, to administer a federal grant program prior to making the award to the
    subgrantees; and

    whether Commission involvement in the application process involved any actual or apparent
    conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management personnel
and documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls used by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;
                                                                           Appendix B

   make a preliminary assessment as to whether the Commission's organizational structure and
   staffing level and slull mix are conducive to effective grant administration;

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, progress reports, enrollment and exit
   forms, and change of status forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed accounting records, Financial Status
Reports and progress reports submitted by subgrantees, as well as Financial Status Reports
submitted by the Commission to the Corporation, to preliminarily assess the accuracy of the
submitted reports.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls used by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of members, service hour reporting, prohibited activities, payment of living allowances to
    members, and allowability of costs incurred and claimed under the grants by subgrantees,
    including reported match);

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A-1 33 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and
                                                                         Appendix B

   make a preliminary assessment of the adequacy of the procedures in place to evaluate
   whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.
Appendix C
                                                                                                   POST   OFFlGe BOX 44243
                                                                                                 BATON ROUGE, L A 70804-4143




                            OFFICE OF THE LIEUTENANT GOVERNOR


January 9,2004



Mr. J. Russcll Gcorge
Inspector General
Corporation for National add Community Service
1201 New York Avenue, NW,Suite 830
Washington, DC 20525

Dear Mr. George:

The Louisiana Serve Commission welcomes oppormnities to improvc its op~rationsand effectiveness as
detailed in our vision and mission statement. The Commission has a rccord of using visits such as the Pre-
Audit Survey as an opportunity for improvement and, as always, remains focused on improving our
operations.

Having recently successfully completed the standards process, the Commission has a greater appreciation
of the level of work we do. The ability of our peers to know the intricacies of this business and their ability
to use that knowledge as a backdrop on which they paint a portrait of constructive criticism is much more
valuable as it relates to organizational improvement.

The Commission has two goals for thrs response, the fusr be& to add clarity to the issues that are
presented, and secondly to demonstrate that a full audit is not warranted at this time.
In short, we appreciate the purposc of the visit and the opportunity to fiuther streamline our opcrations, but
strongly disagree with the recommendation of a full audit. The Commission has systems, policies, and
qualified staff to quickly address those areas h a t need refining or further clarification. What follows is rhc
Commission's initial response to the draft report submitted to the Inspector General of the Corporation for
National and Community Scrvice

Selecting Subgrantees

Missing Conflcr of lnleresf Forms

The draft report indicates that the Commission has in place a system to ensure that peer reviewers for ow
competitive proccsscs complete conflict of intcrcst forms. The Louisiana Serve Commission takes issue
with two statements in thc rcport that deserves clarification.

The report indicates h a t "sevewl" conflict of intercst forms were missing. This statcmcnt is not accurate
and the word 'several' connotes a systemtic problem. In fact, in the sample, two forms werc missing from
the Amencorps application pool, which contributed to the termination of a Program Officer, Ths
demonstrates the Commission's commitment to a fair add impartiaI process, and maintaining 3 staff to meet
such high standards.




                              PHONE (2251 3 4 2 - 7 0 0 9   .   FAX   (225)342-1849
                                              WWW.CRT.STATE.LA.US
                                      A N EQUAL OPPORTUNITY EMPLOYER

                                                                  01/20/2004     TUE 1 8 : 4 6   [TXIRX NO 86801
Questioned Cost

Membership Fees Paid to the American Association of Statc Service Commissions

As stated in the rcport, "These costs are not being questioned at this time." The Commission believes that
these are allowable costs and will address this issue in more &nil at a laxer rime if the costs are questioned.

Other potentially Unallownble Expenditures Churged to Administrative Grant (Quessrioned Claimed Cos'ts
of % 7,022)

These expenditu~cs,which were associated with the Commissioner Leadership Development Initiative and
Service related training, were approved when thc administrative grant was awarded. In fact, for the yeat
question, additional funds were awarded to Commissions for supporrhg the CLDI. Thcse training
opportunities involved several Commissions as well as representation from the Corporation, which fiuther
supports om understanding that these are allowable costs.

Expenditures for Costs Clrarged to Administration Grunt /or Services provided Prior to the Start of the
Grunt (Questioned Claimed Costs of $3,869)

The Statc of Louisiana operates under a modified accrual basis, and payroll expenscs are paid on a cash
basis. The acrual payment in question was made after the start of the grant period and rcflcctcd as such in
our accounting records. These costs have been consistently reported in this manner. If, however, we are
required to accrue payroll costs and report them in the pcriod in which they were actually eamcd, there
wauld be an accrual amount in excess of this amount ($4,708) for the end of the grant period, which could
have been claimed. It is understood that chargcs arc not to be made to grants until an award has been made.

Unsupported Costs Charged to Adminislration Grantfor Services Provided Prior to rhe State of the Grant
(Questioned Claimed Costs of $1 7,502 and $27,284, resp~ctively)

When the Louisiana Serve Commission was established within thc Office of the Lieutenant Governor, thc
Legislature budgeted %22,250 in the Officc of Management nnd Finance to be coIlected ftom the
Commission for services provided in support of the Commission. This amount was based on the budgeted
salary of the Budget Analyst for that agency. Although the salary and benefits increased each year, and
although support services are provided by several staff members in the Officc oEMmagement and Finance,
there was no adjustment in the original budgeted amount

In years where the funds were not needed, the Office of Management and Pinancc did not invoice the
Commission for its services. but provided them as in-kind match. Dctailcd calculations of the in-kind
services provided are attached. Much of rhis information has been previously provided to the audit team.
Because the Office of Management and Finance handles the accounting functions for itself and for the
Louisiana Serve Commission, and because records were available which clearly show that the value of
services provided far exceed the total payment made by the LA Serve Commission to the Office of
Managcmcnt and Financc,invoiccs were ~ oprepared.
                                             t

In the case of Learn and Serve America, the explanation is the same. As you know, Learn and Serve
America was not within the scope of work in this audit. While we are happy to provide t h s information,
wc do nor believe that these should be considered questioned costs for the purpose of this audit.

In response to thr recommendation, the Commission, has systems in place that will be refined to ensure
more effective confrols for allocating cost to grants. Additionally, the Commission and OMF have agreed
rhnt an invoicc for spccific scrvice provided to the Commission for future years will be prepared.




                                                              01/20/2004 TUE 18:46            [TX/RX NO 86801
Additionally, during the visit, it was determined thax the Commission was not required to conduct a peer
raview process for Promise Fellows for the years in question, but had them in most cases. Only two forms
w ~ tmissing
      :         from all of the v o l u d t q peer rcviews for Promise Fellows. The fact that the Commission
requires each application to be reviewed by three different reviewers further minimizes possibility of a
conflict of interest.

Non-Competitive Process for Promise Fellow Award

The report does not accurately reflect thc position of thc Commission or the circumsbnces that lead to the
decision not to fund an application for a Promise Fcllow. It further implies that the Commission had a
questionable relationship with another reputable organization, the Louisiana Association of Nonprofit
Organizations (LANO). The Commission has a long history of patmering with LAN0 on statewide
initiatives, as can be documented in previous progress reports submitted to CNCS.

The Commission aims to have a balanced portfolio that does not concentrate resources in one geographic
area. By funding the application as suggested by the report, we would have disproponionstely placed three
of seven fellows in one geographic area, an area h a t had at least two fellows each of rhe two previous years
o f the program's existence.

In the state guidelines, the Commission indicated that the Commission was the decision making body
which justifies o w ability to not fund based solely on thc scoring system. Bccawt of this diIemma, and id
a n effort 10 strengthen our grant procedures, the Cornmission revised its scoring rubric, which considers the
number of programs in proximity, thus benefiting thosc applicants from areas where there is not a national
service program.

la both cases, the Commission feels strongly that ow policies and actions were sufficient, scrved its
purpose, md are confident rhat the recommendation has been met.

Administering Grant Funds

Discrepancim between Finlrrrcial Starus Reports and finartcia1 Records

The Commission understands the issues that are included in this section and offers an explanation for why
the discrepancies occurred. Therefore, we partially agree with t h s finding. The Commission has
responded as follows:

     Discrepancies beween PER's and FSR's occurred when changes were made to PER's by sub-grantees
     after FSR1s wcrt completed but before they were rolled up and transmitted to the Corporation for
     National Service. Procedures have been established to ensun: that costs reported on applicable FSR's
     are reconciled with payments to the programs. Notices are now being sent to the Program Officer each
     time a PER has been edited by a sub-grantee after the FSR has been completed. Also, the
     Commission's policy now rcquires h e Offlce of Management and Financc to provide monthly
     reconciliation reports.

     At the time the records wcre reviewed, unique Reporting Categories were used to separate formula and
     cornpctitive giant costs in the accounting system. Prior to the audit, beginning with the program year
     2002-2003, a sub-object code was set up to allow these costs to be tracked more easily. Therefore, this
     finding had already been corrected, but was not done retroactively to cover the years of the pre-audit
     survey. Although this docs simplify the audil: trail, there was sufficient information available in the
     accounting system prior to this change to provide a complete audit trail as required.

     The Commission is in the process of reconciling thc FSR's. Programs with discrepancies have bctn
     given a deadline to correct the FSR's.




                                                             0 1 / 2 0 / 2 0 0 4 TUE 1 8 : 4 6   [TX/RX NO 86801
Questioned Mcrlch

Unallowable, Unsupported and Potentially Unallowable Costs Claimed to Administrative Grant Match
(Question Match Costs of $84,440)

No detail of the unallowable, unsupported and potentially unallowable costs was provided in thc audit
report. The Commission believes that sufficient match was provided during thc period under review. We
will be happy ro respond to this issue further if morc information can be obtained.



Prior Subgrantee Audit Finding Resolufwn (Question Cost $31,300)
" h s issue was initiated more than 6 years ago under thc previous Executive Director and Grant Officer. In
working with the Grants department at the Corporation, we were notificd that the Commission had
exhausted its appeals to get to this cment balance, and will be notified as to the appropriate time to appeal
thc remaining balance. Thc Commission intends to appeal this at the next stage of collection as instructed
by the Grant Officer.

Thc Commission disagrees w i ~ hthe recommei~dationto immediately pay thcsc questioned costs with
interest and penalties because all appals have not been exhausted and we have not yet received the
necessary guidance to appeal,this rcrnainhg balance.

Evaluating and Monitori~gSubgrantees

Monitoring results of OMB Circular A-133 Audits of subgrantees

The Commission has a policy of determining which app1icant.s need an A-133 Audit through it pre-award
financial survcy that has been in place for two ycars. This was not in place for the entire sample, but it did
exist for thc last ycar. All programs are required to submit an audit that is forwarded to the Office of
Managcrncnt and Finance for appropriate review.

For the y c m of the review, none of thc applicants funded by rhe Commission required an A-133 Audit,
therefore there was no docun~entationof the Commission reviewing the A-133 Audit or responding
appropriately. The Commission is confident that its cumnt procedures meet the recommendations of the
draft report, and that thc staffs of the Commission and the Office of Management and Finance are capable
of identifying issues by site visit, desk monitoring, or other forms of financial management.

Based on the existing policy and the actual applicants, h e Comnission disagrees with the
recommendations as printed in the report.

Enclosure




Louisiana Serve Commission

c:       Matthew A. Jones, Undersecretaty




                                                             0 1 / 2 0 / 2 0 0 4 TUE 1 8 : 4 6   [TX/RX NO 86801
Appendix D
                                 coror~iook*L &
                                 COMMUNITY
                                 SERVICE=

To:           Russell George, Inspector General


From:                                             of Grants Management


Cc:           Michelle Guillerrnin, Chief Financial Officer
              Rosie Mauk, Director of ArneriCorps


Date:         January 20,2004


Subject:      Response to OIG Draft Audit Report 04-07, Pre-Audit Survey of
              Louisiana Serve Commission


FINDINGS AND RECOMMENDATIONS

We have reviewed the draft Pre-Audit Survey of the Louisiana Serve Commission. Due
to the limited timeframe for response we have not reviewed the audit work papers. We
will respond to all findings and recommendations when the audit is issued and we have
reviewed the findings in detail.


QUESTIONED COSTS

The audit questioned memberships fees paid to the American Association of State
Service Commissions. We disagree with the questioned cost. The Corporation's Acting
Director of Grants Management issued a memorandum dated November 1, 1999 allowing
the use of grant funds for membership cost. The Corporation's General Counsel issued a
memorandum, December 15, 2003 stating, "Our grantees' use of funds for this purpose
neither violates the cited provisions of appropriation law, nor is it inconsistent with the
OMB cost principles, or relevant OGC guidance".

The audit questioned costs, approximately $7,022 in expenditures that were related to
expenditures for conference (such as the Southwest Cluster's Commissioner Leadership
Development Conference). According to the audit, these costs do not appear to meet the
prescribed objective of the Administrative grant, whereby funds are provided solely for
the purpose of the operations of the Commission. We disagree with the questioned cost.
According to the Administrative Provisions, "State Administrative grant funds are to
support the operations of State Commissions and alternative administrative entities in
implementing their duties as required by the Act". 45 CFR 2250.80 provides the duties

                         1201 New York Avenue, NW     *
                                                  Washington, DC 20525
                                              *
                               202-606-5000 www.nationalservice.org
                        Senior Corps   * ArneriCorps * Learn and Serve America           The President's Call to Service
of the State Commission including Technical Assistance, Program development
assistance and training, and Development of a three year service plan.
The audit questioned administrative grant match costs of $84,440. The audit report cited
criteria from ~ m e r i C o r Provisions
                              ~s         that are not applicable to State Administrative
Grant. However, due to the limited timeframe for response we have not reviewed the
audit work papers. We will respond to the questioned costs when the final Pre-Audit
Survey is issued.

The audit questioned prior subgrantee audit findings resolution in the amount of $3 1,300.
We will respond to the questioned costs when the final Pre-Audit Survey is issued.
